<html>
<title> - TO DISCUSS HOW FARM BILL PROGRAMS CAN BETTER SUPPORT SPECIES CONSERVATION</title>
<body><pre>[Senate Hearing 109-439]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-439


 
     TO DISCUSS HOW FARM BILL PROGRAMS CAN BETTER SUPPORT SPECIES 
                              CONSERVATION

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                             July 26, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-639                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Discuss How Farm Bill Programs Can Better Support Species 
  Conservation...................................................    01

                              ----------                              

                         Teusday, July 26, 2005
                    STATEMENTS PRESENTED BY SENATORS

Crapo, Hon. Mike, a U.S. Senator from Idaho, Chairman, 
  Subcommittee on Forestry, Conservation, and Rural 
  Revitalization, Committee on 
  Agriculture, Nutrition, and Forestry...........................    01
Salazar, Hon. Ken, a U.S. from Colorado..........................    07
Lincoln, Hon. Blanche, a U.S Senator from Arkansas...............    21
                              ----------                              

                               WITNESSES

Cummins, James L., Executive Director, Mississippi Fish and 
  Wildlife Foundation, Stoneville, Mississippi...................    11
Foster, Kent J., Executive Director, Idaho Association of Soil 
  Conservation Districts, Boise, Idaho...........................    18
Knight, Bruce I., Chief, Natural Resources Conservation Service, 
  U.S. Department of Agriculture, Washington, DC.................    03
Manning, Steve, Project Manager, Leon River Restoration Project, 
  Gatesville, Texas..............................................    14
Searchinger, Timothy D., Co-Director, Center for Conservation 
  Incentives, Environmental Defense, Washington, DC..............    15
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cummins, James L.............................................    43
    Foster, Kent J...............................................    82
    Knight, Bruce I..............................................    38
    Manning, Steve...............................................    61
    Searchinger, Timothy D.......................................    69
Document(s) Submitted for the Record:
    Cochran, Hon. Thad...........................................    90
    Testimony of Frank Casey, Ph.D., Director, Conservation 
      Economics Program Defenders of Wildlife....................    92
    Letter to Mr. Bruce Knight from the Environmnetal Quality 
      Incentives Program (EQIP)..................................   106
Questions and Answers:
    Crapo, Hon. Mike.............................................   112
    IASSCD's.....................................................   116



 HEARING TO DISCUSS HOW FARM BILL PROGRAMS CAN BETTER SUPPORT SPECIES 
                              CONSERVATION

                              ----------                              


                         TUESDAY, JULY 26, 2005

                                       U.S. Senate,
         Subcommittee on Forestry, Conservation, and Rural 
  Revitalization, Committee on Agriculture, Nutrition, and 
                                                  Forestry,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:57 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Mike Crapo, 
chairman of the subcommittee, presiding.
    Present or submitting a statement: Senators Crapo, Lincoln, 
and Salazar.

 STATEMENT OF HON. CRAPO, A U.S. SENATOR FROM IDAHO, CHAIRMAN, 
       SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL 
   REVITALIZATION, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Senator Crapo. This hearing will come to order. This is the 
oversight hearing on how farm bill programs enhance species 
conservation.
    I am starting a few minutes early because I want to get my 
opening statement in and let Mr. Knight have an opportunity to 
make his testimony before all sorts of trouble starts 
happening. Let me tell you what is going on.
    On the Senate floor, they have scheduled five stacked votes 
starting at 10:30, is that right--10:15. And on top of that, 
the Finance Committee on which I sit is having a markup and I 
am going to have to cast a vote at the Finance Committee at 
10:20. So what that means--you are all probably trying to 
figure out what that means. So am I.
    What that probably means is we will start here and run 
until approximately 10:20, at which time there will probably be 
a vote underway on the Senate floor and a vote underway in the 
Finance Committee and I will have to recess to go do those 
votes. The question then will be whether we recess for 
approximately an hour or an hour-and-a-half, and I apologize to 
the other witnesses that that may be what happens.
    It is possible, however, that we may be able to get one of 
the other Senators--I think Senator Blanche Lincoln was 
intending to be here, and if she is here, she and I may be able 
to kind of do tandem votes, meaning that one of us will stay 
here and preside while the other votes and we will go back and 
forth for those five votes. Now, if that works, we can keep the 
hearing going. If not, I apologize. We will have to shut down 
while the Senate votes for five votes, and five votes takes 
about an hour to get done.
    So I will just give you the advance warning that we may 
have our whole morning kind of jumbled up, and if that fouls up 
people's flight plans and so forth, we certainly understand and 
we will work with you the best we can.
    With that, I am going to give my opening statement here 
very quickly and then, assuming no other Senators are here by 
the time I am done, Mr. Knight, we are going to go right to 
you.
    It has been just over 3 years now since the President 
signed the farm bill into law, and at that time, the President 
noted the importance of the conservation title. He said it 
helps producers meet newer and higher environmental standards 
and enhances their ability to protect wetlands, water quality, 
and wildlife habitat. The President was right, and today we 
begin to consider new accomplishments to which this program can 
aspire.
    The 2002 farm bill is one of the most important 
environmental laws that we have ever enacted--that, frankly, 
Congress has ever enacted, and I often state that the farm bill 
generally, whichever one it is we are working on, is one of the 
most pro-environmental bills that Congress ever deals with. Its 
conservation programs result in real environmental benefits.
    The success of these voluntary contractual programs in 
addressing environmental concerns is also testimony to both 
farmers and ranchers. Those who make their living off the land 
have long been good stewards of those resources.
    We spend significant money on farm bill programs and we 
obtain notable results. The conservation programs in the farm 
bill are supported by a wide variety of public and private 
interests. The farm bill is a pillar in American conservation.
    There is another important environmental law, the 
Endangered Species Act, which is also a pillar of American 
conservation, but that approaches our goals differently. The 
Endangered Species Act primarily seeks to stop harmful 
activities toward species, as the farm bill conservation 
programs promote benefits for species. The Endangered Species 
Act has been torn by conflict. The farm bill has been widely 
supported.
    Because we need both protection of species and promotion of 
their recovery, we are today considering how the farm bill and 
the Endangered Species Act have worked well together and how 
they can work better together in the future. We want to learn 
how success stories come about and what can be done to promote 
them.
    We will hear from two panels. First, the NRCS Chief, Bruce 
Knight, will share with us the views of the administration, and 
then we will hear from four witnesses representing landowner, 
environmental, and wildlife interests.
    I want to remind the members of the panels that we have a 
5-minute limit on your testimony. That is not because we don't 
want to hear from you. It is because we want to have 
opportunity and time for interaction and questions and answers. 
We do read your written testimony very carefully, but we 
encourage you to try to be sure to summarize your testimony in 
the 5 minutes allotted. If you do start running over, I will 
just kind of tap the gavel to remind you to watch the clock. I 
find that most people, like myself, cannot get everything they 
want to say said in 5 minutes, and I apologize to you for that, 
but we will give you opportunity to expand on your points and 
so forth in questions.
    With that, Mr. Knight, would you please proceed.

    STATEMENT OF BRUCE I. KNIGHT, CHIEF, NATURAL RESOURCES 
     CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                         WASHINGTON, DC

    Mr. Knight. Mr. Chairman, I appreciate the opportunity to 
appear before you today to discuss the role of farm bill 
programs in the conservation of wildlife habitat.
    The topic of today's hearing really goes to the heart of 
cooperative conservation and illustrates the importance of what 
farmers and ranchers do on private lands. Because more than 70 
percent of federally listed species depend on private lands, 
farm bill conservation programs can and do make a real 
difference for those species.
    In 2002, President Bush signed into law the most 
conservation-oriented farm bill in history. In total, the 
legislation enacted by the President provided a $17 billion 
increase in conservation funding over a 10-year period. In 
addition, direction was provided to assist agricultural 
producers to meet the regulatory challenges they face.
    Our administration has taken these provisions very 
seriously and has bolstered them even further in practice. For 
example, the Environmental Quality Incentives Program 
procedures direct NRCS State Conservationists to boost the 
ranking for projects that assist compliance with environmental 
regulations, such as ESA.
    In addition, one of the four national priorities for EQIP 
focus on wildlife by seeking the promotion of at-risk species 
habitat recovery. This national conservation priority is used 
by NRCS to allocate additional funding to States in targeted 
areas and to develop new habitat for the future.
    I would note that the EQIP program has funded over $3 
billion of conservation work on private lands since fiscal year 
2002, with more than $1 billion authorized for next year. 
Couple these funds with the additional half-billion dollars 
dedicated through other conservation programs, such as the Farm 
and Ranchlands Protection Program and the Conservation Security 
Program this year, and it becomes clear that wildlife habitat 
is receiving major benefits.
    With respect to wetlands, President Bush announced an 
initiative on Earth Day 2004 that will go beyond the Federal 
policy of no net loss and set a new goal to restore and protect 
at least three million acres of wetlands over 5 years. The 
Wetlands Reserve Program is playing a significant role in 
meeting this goal and is on course to protect more than two 
million acres of wetlands.
    In addition, this year, we have sought out partners for the 
new Wetlands Reserve Enhancement Program. These partnership 
proposals will restore and protect habitat for migratory birds 
and other wetland and wildlife. Under this initiative, NRCS is 
matching resources and leveraging the efforts of State and 
local governments to provide even greater assistance to 
landowners, and included in this funding is a minimum of 
$500,000 for partnership proposals that address Bog Turtle 
habitat in the Eastern United States and a minimum of $500,000 
to assist with Ivory-billed woodpecker habitat in Arkansas. We 
believe that excellent opportunities exist for developing 
bottomland hardwood wetlands that will provide long-term 
benefits for this magical species.
    Mr. Chairman, turning to a few Western issues, habitat 
conservation for the Greater sage grouse serves as a prime 
illustration of the role of farm bill programs in conservation 
planning and assistance. NRCS estimates that in fiscal year 
2004, more than 80,000 acres of sage grouse habitat benefited 
directly from private lands conservation efforts, with more 
than one million acres experiencing a secondary benefit. As a 
result, the U.S. Fish and Wildlife Service made a decision not 
to list the greater sage grouse, partially in response to gains 
made on private lands, and emphasized the importance of the 
ongoing and future conservation efforts to long-term health of 
the species. Just 2 weeks ago, Secretary Johanns also announced 
an additional $5 million for sage grouse special projects in 11 
Western States, which doubles USDA's commitment over fiscal 
year 2004.
    USDA has also provided $2.8 million this year in the 
Wildlife Habitat Incentives Program for salmon habitat 
restoration. Through this effort, NRCS helps landowners with 
projects that restore habitat for both pacific and Atlantic 
salmon. We are pleased with the gains being made to improve 
salmon habitat and believe that NRCS can continue to build on 
this success in the future.
    Before I conclude, Mr. Chairman, I want to note another 
bright prospect on the horizon for species habitat. The Healthy 
Forests Restoration Act of 2003 authorized a Healthy Forests 
Reserve Program to make payments to private forest landowners 
who agree to protect acreage and promote the recovery of 
threatened and endangered species. This Act contains innovative 
provisions relating to safe harbor or similar assurances to 
landowners who enroll and provide a net conservation benefit 
for listed, candidate, and other species. Work on establishing 
programmatic rules and procedures for this program is well 
underway.
    Mr. Chairman, my statement has highlighted just a few of 
the many programs available to private landowners and provides 
a sense of the kind of species targeted and the work that 
private landowners are accomplishing. I thank the subcommittee 
and will be happy to respond to any questions you may have.
    Senator Crapo. Thank you very much, Mr. Knight.
    [The prepared statement of Mr. Knight can be found in the 
appendix on page 38.]
    Senator Crapo. Your agency, like all agencies, is required 
to comply with the ESA consultation. Could you elaborate on 
that role, and frankly, I am looking for you to provide any 
ideas you might have for streamlining the process in 
relationship to farm bill programs.
    Mr. Knight. There is a great deal of potential for further 
streamlining. At present, our consultation tends to evolve 
around a State-to-State relationship and effort and a larger, 
more comprehensive procedure could speed the process and make 
considerable savings in our administrative costs, and I believe 
Fish and Wildlife or NOAA's costs, as well.
    At present, the best examples we have got out there lie in 
the State of Oregon and in the State of Montana, where we have 
had a good relationship built over time. But it is so key upon 
those individual relationships in the State that we need a 
larger, overarching consultation process to ensure that it 
works smoothly nationwide.
    Senator Crapo. Thank you. I appreciate these kinds of 
inputs that we get from folks who have to go through the 
process. We have been working now for a number of years to try 
to streamline the consultation process and make it work better 
and any kind of input that you can provide will be very, very 
appreciated.
    In your testimony toward the end there, you mentioned that 
you are working on procedures for the Healthy Forest 
Restoration Act that would relate to a safe harbor or similar 
assurances under the ESA to landowners. Could you share with us 
some of the key elements that you think that you would like to 
implement in those procedures?
    Mr. Knight. We just have wrapped up our internal work and 
are now engaged in that process with Fish and Wildlife to try 
to work out how to effectively be able to provide that safe 
harbor. It is one of the most exciting aspects of this program 
and one that we routinely hear from individual producers with 
any of our programs about a need for some manner of safe harbor 
protection.
    As you know, in many areas of the country, it is a major 
hurdle for a producer to place conservation practices on the 
ground if there is a concern that it may involve an endangered 
species that may have an impact on that producer's operation, 
the farm or ranch, long-term. So the safe harbor is a very 
intriguing concept and one that we look forward to working with 
U.S. Fish and Wildlife in putting in place under the Healthy 
Forests Reserve Program.
    Senator Crapo. All right. I think I am just going to have 
time for one more question. I have mentioned, as I said in my 
opening comments, I have bragged about the farm bill and its 
conservation benefits for years and have often talked in terms 
of justifying the new commitment, the dramatically increased 
commitment to conservation that we put in the conservation 
title of the farm bill the last time. I have talked about the 
fact that this is one of the ways that we can have the best 
impact on our environment.
    In today's hearing, we are kind of taking this concept one 
step further, which is to not just talk about the impact of the 
conservation programs under the farm bill on the environment in 
general, but specifically their impact on species recovery in 
coordination with the Endangered Species Act. It seems to me 
that if a landowner qualifies under a farm program, 
conservation program, for some type of support and the 
conservation project which the landowner is then implementing 
also has benefits for a species and can be actually coordinated 
with or an improvement to or a support of a recovery program, 
that that is a win-win situation.
    Do you see any way that this development, or utilizing and 
thinking about conservation programs under the farm bill in 
this way would divert the farm bill programs from their 
intended purposes?
    Mr. Knight. I would not see that as a diversion at all but 
see that win-win as highly desirable and in keeping with the 
general direction that we received in the 2002 farm bill to 
assist individual landowners--farmers, ranchers, rural 
landowners--in coming into compliance with any of the myriad of 
rules and regulations that come at them from Federal, State, or 
local efforts. And so this would be very consistent with the 
directive that we are giving in the farm bill.
    Senator Crapo. All right. We are at the point now--I have a 
little bit of an update, which I am not sure is good news or 
what, but the vote on the floor is now not expected to start 
until 10:30. I still have to leave to run over to the Finance 
Committee to cast a critical vote on pension reform markup and 
Senator Lincoln has been delayed. I am not sure right now 
whether she will come here first or go to the floor first to 
vote, and so what I am going to have to do is to recess this 
hearing, and Mr. Knight, I am not going to make you stick 
around, although I think you may expect to get a bunch of 
questions, if you would please be willing to respond in writing 
to questions.
    Mr. Knight. Certainly.
    Senator Crapo. And so we will cut you loose as soon as we 
recess the hearing. For the other witnesses, I really 
apologize. I know that this is probably screwing up, for the 
witnesses as well as others attending here, it is probably 
really screwing up your schedules and your plans. It is doing 
the same thing to the later part of my day, as well.
    So the best I can say to you is if you can adjust your 
schedules and hang in here with us, I would appreciate it 
because we do want to try to come back and start this hearing 
up again and get the rest of the testimony in. If you have got 
a flight or if you have other commitments that you just can't 
hang around for, we understand and we would appreciate you 
letting us know so that we can coordinate with you. We do have 
your written testimony, and I would also encourage any of the 
witnesses who can't stick around, if there are any, to be 
willing to respond in writing to questions if members of the 
committee have questions to send to you.
    What I intend to do right now--well, maybe we will be able 
to keep going. Senator Salazar, I may be willing to turn the 
chair over to you. I have to run and cast a vote in the Finance 
Committee, and then, as you know, in about 15 minutes, there 
are going to be votes starting over on the Senate floor. But if 
you would be willing to keep the hearing going until you have 
to go over and vote, I would appreciate that. Could you do 
that?
    Senator Salazar. Absolutely. For the distinguished 
chairman, I would be delighted to do so.
    Senator Crapo. Thank you very much. Then what I will do is 
I will not recess the hearing at this point and we will 
continue. If I am not back, Senator Salazar, before you have to 
head out and vote, if you would just put the committee into 
recess, then we will get back and keep it going as quickly as 
we can. That way, we will have fewer delays.
    Now, it may turn out that when we do end up having to go 
over and vote that if we aren't finished by that time, which we 
probably won't be, there may be a sizable delay right then, 
because once they start these votes, they will run them in 
about ten- to 15-minute segments and it just gives us barely 
enough time not to be able to run back here and get anything 
done before we have to go back for another vote.
    We will go as far as we can, and then I apologize, but we 
will probably have to recess still at some point, and then if 
you can hang around, we will keep you posted through 
information as best we can.
    Senator Salazar, we have just finished the first--if you 
want to ask questions of Mr. Knight, I almost cut him loose, 
but he is still here----
    [Laughter.]
    Senator Crapo [continuing]. And then if you could go to the 
second panel when you are done with him.
    Senator Salazar. Absolutely.
    Senator Crapo. All right. Thank you.
    Senator Salazar. I will make an opening statement and I 
will try to take care of the committee in your absence, Mr. 
Chairman.
    Senator Crapo. Thank you very much.

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar [presiding]. Thank you, Mr. Knight, for 
being here, and I very much am looking forward to this hearing 
as we look at the Endangered Species Act and this initiative 
that Senator Crapo has undertaken.
    I would like to hear from you what it is that you think we 
ought to be doing with the Endangered Species Act, what kind of 
changes you think that we ought to be considering, if any at 
all, and I will give you this preview with respect to my 
interest in this issue.
    For years, I have seen the Endangered Species Act attacked 
by people who want to make some very dramatic changes to the 
Endangered Species Act. I also, on the other hand, have seen 
people come together in my own State of Colorado to develop 
what have been very effective programs at recovering endangered 
species. We have done that on the Colorado River system with 
the group that has been working on the recovery of the four 
endangered fish in the Colorado River system. It has been a 
group that has brought together water users, the agricultural 
community, and the environmental community, as well, and a 
program that by the measures of all those who participate in 
that program says that program has been successful.
    In the last 10 years or so, I had the opportunity to work 
on that program as well as working on a program on the South 
Platte River on the recovery efforts on the South Platte, and 
again there working with a consortium of the Federal agencies, 
the States of Nebraska, Wyoming, and Colorado, and water users 
and the environmental community. Progress is being made with 
respect to how we can deal with the recovery of the species and 
at the same time make sure that what we are doing is protecting 
water users and water rights in Colorado and throughout the 
system.
    So as this box gets opened up to look inside the Endangered 
Species Act and what kinds of changes might be considered, I 
would be very interested in knowing what your thoughts are in 
that regard. But I think perhaps at this point in the hearing, 
since you have not yet, I think, had the opportunity to give 
the opening statement to the members of the committee--you 
already have done that?
    Mr. Knight. Yes.
    Senator Salazar. OK. Why don't you just then take that as a 
question and we will go from there.
    Mr. Knight. Thank you, Senator. The Natural Resources 
Conservation Service is part of the Department of Agriculture. 
We are the nation's private lands conservation agency and we 
have basically four major principles that we end up trying to 
assist private landowners with--soil erosion, from whence we 
came as the Soil Conservation Society; water quality; wildlife 
habitat, especially as it pertains to conservation of species 
and habitat for those species; and then air quality.
    As such, when we start looking at what is the agency's role 
with the intersection of the Endangered Species Act, we really 
view ourselves as an enabler of cooperative, collaborative 
conservation action on the ground. What we are trying to do is 
ensure that the tools are there. It may be the assistance 
through cost share through our various programs, Environmental 
Quality Incentives Program, those sorts of things. It may be 
the assistance of technical assistance, of having a Federal 
agency without a regulatory bend at the table trying to provide 
assistance to find that win-win.
    And what we do is we seek out those collaborative actions 
wherever they may occur around the country, it may be with bog 
turtle or eel grass or salmon recovery or sage grouse, to find 
those areas in the community where folks are coming together 
and need the assistance, either financially or technically, to 
provide that assistance.
    There are certainly areas that we see as we work with our 
other agencies in the Federal family where the degree to which 
we can streamline consultation processes or we can streamline 
the efforts to make sure that a broader basket of our basic 
conservation services are recognized as being good for wildlife 
and assisting in this, the more rapidly we are going to be able 
to put conservation on the ground.
    One of the key things to keep in mind is that the speed 
with which we can respond to conservation requests are very 
important, because we are dealing with a living, breathing 
ecosystem where the seasonality of being able to get in the 
field is very important. You can't do a lot of conservation 
work in the winter months in the Northern tier of States, and 
so there is a real need to be able to act expeditiously when 
that collaboration comes together and be able to put 
conservation on the ground in the spring and the summer when we 
can be the most effective.
    So the seasonality of what we deal with that Mother Nature 
imposes is much more important for us than the timelines that 
you may run into as you interact with other agencies, be they 
State or Federal in nature.
    Senator Salazar. I appreciate those comments. Let me take 
you back to your first point on the collaborative conservation 
programs out in the field. When you look back at the 2002 farm 
bill from the point of view of USDA and the Natural Resource 
Conservation Service, describe for me, for my benefit and for 
those who are listening here today, what it is--what kinds of 
tools were given to USDA to engage in those collaborative 
services and how can they work.
    Mr. Knight. The most significant item that folks talk about 
is the fairly significant influx of funds, nearly $17 billion 
in additional funding over the 10-year span starting with 2002, 
and we are well along the way in being able to put additional 
conservation on the ground.
    We also received several new funding authorities. The one 
that has garnered the most attention--we announced the accepted 
contract's yesterday--is called the Conservation Security 
Program, and under CSP, we are rewarding leading-edge 
conservationists for their efforts and encouraging them to do 
even more. We are finding a great deal of benefits on wildlife 
coming in through this new Conservation Security Program.
    The other new authority that we received was the Grasslands 
Reserve Program, targeted at protecting these endangered and 
fragile grasslands that we have been losing--tall-grass, short-
grass, mid-grass prairies--that we are losing either to 
development or conversion to cropland. That program has been 
wildly popular. We have now reached the funding cap on it and 
are going to have to suspend being able to accept further 
enrollments in it. But that has been very important and it has 
been very key in our ability to respond in a voluntary manner 
to sage grouse concerns.
    The program that has perhaps the greatest impact on 
wildlife that has had a lot of attention, that we are very 
proud of, is the Wetlands Reserve program. That has program 
been very instrumental in achieving the President's goals for 
the creation, enhancement, or restoration of an additional 
three million acres of wetlands. Two years ago on Earth Day, 
the President announced that we had actually achieved no net 
loss of wetlands due to agricultural conversions and we are now 
on our way to achieving a net gain of wetlands and laid out 
that very ambitious goal.
    So overall, it has been a couple of programs with new 
authorities and additional funds, and then a real focus on 
working lands conservation to be able to ensure that we find 
that right combination of conservation along with economic 
vitality for the farmers and ranchers that we serve.
    Senator Salazar. Can you, Chief Knight, for my benefit, if 
you were to quantify the progress we have been able to make 
under the money that has been provided and the tools that have 
been given, can you give me an overview of that? You mentioned 
the three million acres with respect to wetlands that have been 
protected, but we also put a lot of money and given you 
authorities in the other programs that you mentioned. If you 
were to describe the world of conservation undertaken by USDA 
and how it fits into the protection of habitat, how many acres 
are we talking about nationally? Are those the kinds of figures 
that you have?
    Mr. Knight. I may need to respond to the record for you on 
those, but the acres that we have covered with conservation 
planning and basic underlying work would be in the tens of 
millions of acres that have been covered, which means less soil 
erosion, which in turn is less sediment in the rivers and 
streams, making them more fishable and swimmable, and our 
assistance has the same impact on the nutrient management side 
of things.
    One of the other major areas of priority for us has been 
helping livestock operations come into compliance with EPA's 
CAFO/AFO rules, the comfined Animal Feeding Operations. We have 
written, I think, last year about 12,000 comprehensive nutrient 
management plans which will help ensure that those nutrients, 
that waste, stays out of the rivers and streams. But I can 
elaborate further in the record for you in that effort.
    I would note that one of the important authorities that was 
directed in the Farm Bill was a new measurement and assessment 
effort called CEAP, Conservation Effects Assessment Project, 
and we are just now starting to launch the wildlife 
measurements. We are trying to move beyond the basic outcome 
measures, you know: How many miles of streams have we buffered? 
How much habitat have we restored? And get to: What are the 
outcomes? What are the nutrient loadings avoided? What have we 
done to help the individual species?--in a much more 
comprehensive manner that tallies up all the programs. We have 
been working very closely with the other Federal agencies in 
trying to build this comprehensive effects assessment project 
and be able to have something that will greatly assist you all 
as you move forward with authorization of the 2007 farm bill.
    Senator Salazar. What is the timing, Chief, for the 
completion of that assessment?
    Mr. Knight. I have staff briefing me again this afternoon 
on that. It is always frustratingly slow and I have to admit, I 
am very nervous about having this sort of work far enough along 
for us all to be able to make rational decisions for the 2007 
farm bill. But we will at least have interim results and have 
the template that will allow this to function well over the 
next 10 years.
    Senator Salazar. When will that happen?
    Mr. Knight. I am hoping to have materials that you will be 
able to have as an interim report in 2006. But it is still a 
tough pull for us right now.
    Senator Salazar. Let me ask one more question here before 
turning the meeting over to the chairman. The second point you 
talked about was streamlining the process and you were getting 
into some discussion about the seasonality and the sensitivity 
of the seasons and the importance of making those investments 
when they ought to be made. When you talk about streamlining 
the process here insofar as USDA is concerned, what kinds of 
concepts are you exploring, are you thinking about as you look 
forward over the next couple of years?
    Mr. Knight. We recently had a leadership retreat between 
Fish and Wildlife leaders and the Natural Resources 
Conservation leadership. We have done similar things with the 
agencies within the Department of Agriculture, Forest Service 
and FSA, to try to look at how, working cooperatively, we can 
speed up the process as much as we can on each of these things.
    In the case of our work with Fish and Wildlife, what is 
very key is being able to get to a programmatic consultation 
that will allow us to move much more rapidly on our individual 
implementation of practices. What we are trying to avoid is 
when, in the case of EQIP, where we are putting in place around 
25,000 to 35,000 contracts a year nationwide, having to do 
individual contract consultation but rather moving to a 
programmatic consultation that would say, in this geographic 
area or in this State, this set of practices are generally 
understood to be of benefit to salmon recovery or benefit to 
sage grouse recovery and, therefore, we wouldn't have to go 
through a detailed programmatic consultation on those 
individual contracts and contract administration. By doing 
that, we will be able to shorten our turnaround time for 
implementation of each of those contracts.
    As an agency, we are also moving our contract 
administration earlier into the year to try to catch our 
customers when they want to do most of their farm planning, 
which is November, December, and January for the subsequent 
year, try to make our contract administration and decisions in 
that timeframe so that they are set to go in the spring rather 
than end up with a process that may push a final decision into 
June or July, in which case you almost have to wait a full year 
before you get into contract implementation.
    Senator Salazar. I would appreciate, Chief Knight, if you 
would keep us apprised of your assessment and the progress on 
the assessment because I know it will be important certainly to 
me, and I imagine to all the members of this committee, as 
well.
    Mr. Knight. Thank you, and we will elaborate further on the 
record for you.
    Senator Salazar. Thank you very much.
    Senator Crapo [presiding]. Do you have any other questions?
    Senator Salazar. No, I am done with Mr. Knight.
    Senator Crapo. All right. Thank you. Mr. Knight, we will 
excuse you and move to the next panel so that we can hopefully 
get as far as we can on it before we have to leave for votes.
    While Mr. Knight is leaving and the other panel is coming 
up, I will introduce them, and they are still saying the vote 
may or may not be at 10:30. It might be closer to 10:45 now, so 
we will just keep going.
    Our first panelist will be Mr. James Cummins, Executive 
Director of the Mississippi Fish and Wildlife Foundation. 
Second would be Mr. Steve Manning, the Project Manager of the 
Leon River Restoration Project in Texas. Third is Mr. Tim 
Searchinger, Co-Director of the Center for Conservation 
Incentives of Environmental Defense. And then fourth is Mr. 
Kent Foster, Executive Director of the Idaho Association of 
Soil Conservation Districts.
    We appreciate all of you coming, and again, I would like to 
remind each of you to try to pay attention to that clock so we 
can get as many of you through as we can before we have to 
break, and then we will try to decide where we are when we find 
out when they actually call the vote.
    Please proceed, Mr. Cummins.

STATEMENT OF JAMES L. CUMMINS, EXECUTIVE DIRECTOR, MISSISSIPPI 
     FISH AND WILDLIFE FOUNDATION, STONEVILLE, MISSISSIPPI

    Mr. Cummins. Chairman Crapo, Senator Salazar, I certainly 
appreciate the opportunity, Ranking Member Lincoln, I 
appreciate the opportunity to be here today. It is very 
humbling to be in a room where our nation's most significant 
conservation programs have began.
    I am James Cummins, Executive Director of the Mississippi 
Fish and Wildlife Foundation. Two of our most significant 
accomplishments include working with Senator Cochran to develop 
the Wildlife Habitat Incentives Program and working with 
Congress to develop the Healthy Forest Reserve Program.
    The Endangered Species Act has been very effective in 
preventing extinction. However, its recovery rate is only 1 
percent. Today more than ever, it is medicine's goal to get you 
out of the hospital, not keep you in it. We need to view 
species the same way. Unfortunately, 70 to 80 percent of our 
nation's listed species are found on private land and eight of 
the top ten States of listed species are in the South.
    In 1973, Congress found that incentives are needed for 
species and Congress, specifically the Agriculture Committee, 
has passed two incentive programs for species, WHIP and the 
Healthy Forest Reserve. Other programs certainly have broader 
goals.
    So why do we need incentives like land use payments and 
practice cost share payments for species, and will the current 
cost share rates work? Land use payments come in the form of 
per acre fees, rental payments, and easement payments. Both 
land use payments and cost share payments can be funded through 
direct payments, tax credits, and/or tax deductions. To work, 
the value must be close to market value to offset lost revenue 
from the land.
    Cost share rates of 50 or 75 percent work when there are 
public and private benefits. For example, a private benefit is 
timber. A public benefit is timber left standing to benefit, 
for, say, example, the ivory bill. If private benefits are 
large, the incentive would not need to be provided. Habitat for 
species often does not have private benefits, so with most 
species, 100 percent of the incentive will need to be provided.
    We need to better utilize existing programs. Congress 
should fully fund the Healthy Forest Reserve Program. Senate 
Appropriations has funded a pilot, and I am certainly grateful 
to Senator Cochran for that. I cannot emphasize enough the 
importance of restoring forest ecosystems to recover species. 
The list of the top ten States with the most degraded forests 
almost mirrors that with the most listed species. There would 
be no greater service you could do for Southern species than to 
find incentives for forest ecosystem restoration.
    WHIP is USDA's most cost-effective program, and like the 
Healthy Forest Reserve, its greatest limitation is funding. We 
should also discuss other mechanisms to improve it for the next 
farm bill.
    Recovery can be further incorporated into other programs. 
Expand the definition of eligible lands, establish a continuous 
sign-up in CRP for species, limit the area where recovery is 
possible, utilize reenrollments to gain more benefits for 
species, plant the vegetative type historically on the land, 
and reauthorize the Grassland Reserve Program and do not focus 
it on urban lands that are very expensive.
    The tax code can certainly greatly aid species. 
Conservation easements, when used properly, are a great tool, 
but they preserve the status quo. We need more restoration. One 
idea is to develop a two- to five-million-acres Endangered 
Species Reserve Program consisting of tax credits. This habitat 
restoration program could consist of a voluntary five-, 15-, or 
30-year agreement being placed on the land in close proximity 
to an existing species population. The landowner would receive 
a tax credit equal to 75 percent of the rental rate plus 100 
percent of the restoration cost. Priority would be for projects 
where the species can be recovered in less than 30 years. For 
species where the estimated recovery is greater than that, 
priority would be given to projects where the landowner 
voluntarily agrees to place a conservation easement.
    A lot of times we talk about preservation versus management 
and many species cannot be recovered by preservation alone. 
Habitats must be managed. For example, we are doing a great job 
of preserving the status quo with the red cockaded woodpecker. 
Its optimum habitat is characterized by old-growth pine forests 
with little or no understory. Fires caused by lightning and 
those set by Native Americans burned these areas and killed the 
understory. Now, mainly because of liability and the desire of 
many to not create a habitat favorable for regulation, 
controlled burns are infrequently used. The lack of management 
has resulted in no woodpeckers on private land in the entire 
State of Mississippi.
    The Department of Defense is faced with a growing threat in 
its ability to maintain the readiness of our armed forces. That 
threat, often termed encroachment, is caused by development and 
habitat loss near military installations. DOD's efforts have 
resulted in our bases having some of the best habitat in the 
nation. The most effective action we can take to protect these 
installations is to restore and protect the land around them, 
which will also recover species that may hamper the mission of 
the base. This, too, can be accomplished with incentives.
    We need cost-share to control invasive species, either in 
the form of new legislation or as a component to an existing 
program. Invasives rank as the second-greatest threat to 
species, having contributed to the decline of 42 percent of our 
nation's species. If we attack invasives such as kudzu, 
cogongrass, and cheekgrass with the same gusto as soybean rust, 
we would be making a large dent in that percent.
    Assistance for chemical, mechanical, and biological control 
is needed where they are impacting species.
    I have other ideas involving a new program called Debt for 
Conservation, safe harbor, technical assistance funding, and 
carbon sequestration, but in the essence of time, I will ask 
you to refer to my written remarks.
    A diversity of incentives will help make species more 
economically attractive. They will help remove the species of 
our nation from their respective list or cause them not to be 
listed. And working with private landowners and enabling them 
to conserve habitat is the kind of proactive strategy that can 
head off a regulatory crisis, improve species, and provide 
opportunities for economic growth.
    Mr. Chairman, Ranking Member Lincoln, this concludes my 
remarks. Thank you.
    Senator Crapo. Thank you very much, Mr. Cummins.
    [The prepared statement of Mr. Cummins can be found in the 
appendix on page 82.]
    Senator Crapo. Mr. Manning?

    STATEMENT OF STEVE MANNING, PROJECT MANAGER, LEON RIVER 
             RESTORATION PROJECT, GATESVILLE, TEXAS

    Mr. Manning. Mr. Chairman, Senator Lincoln, I want to thank 
you for the opportunity to testify here today.
    Senator Crapo. Is your mike on? There should be a button 
there.
    Mr. Manning. Do I get my time back?
    [Laughter.]
    Senator Crapo. You bet.
    Mr. Manning. Mr. Chairman, Senator Lincoln, I want to thank 
you for the opportunity to testify here today. My name is Steve 
Manning. I am a fifth generation rancher from Coryell County in 
Central Texas and I am going to be talking to you today about 
the Leon River Restoration Project, and more specifically, the 
Leon River Restoration Project Phase 1 Report issued by Texas 
A&M University in September of last year.
    The Leon River Restoration Project is a research brush 
control program within the Leon River watershed of Hamilton and 
Coryell Counties, Texas. The primary objective of the research 
component is to quantify the impacts of ash juniper removal and 
rangeland management on water yield and quality, wildlife 
habitat, and forage production for livestock. Juniper removal 
and rangeland management practices are implemented no selected 
private rangelands that are within habitat for the golden-
cheeked warbler and black-capped vireo, both of which are 
endangered species. The Leon River Project is significantly 
unique in the success it has accomplished by bringing together 
a large number of stakeholders to work effectively toward 
diverse goals in a common project.
    I am going to be talking today specifically about two 
components of that research, the wildlife and the economics 
component. I am going to talk about the wildlife component 
first. And the wildlife component, because of the success we 
have had in bringing together diverse interests and building up 
the trust of the landowners, we were able to, as a part of this 
project, to do presence/absence surveys for both endangered 
species across the range of the project, which is about 700,000 
acres in the two counties.
    Working with over 100 landowners to date, Texas A&M was 
able to put graduate students out on the ground and do surveys, 
and just one of the example, in one of the some watersheds or 
creeks within our project area, the Coryell Creek, about a 
54,000-acre drainage, for the golden-cheek warbler, A&M found 
that about 36 percent, or 19,700 acres of that one drainage was 
occupied warbler habitat. For an endangered species, they are 
doing quite well. Black-headed vireo ranged from about five to 
7 percent, but again, a lot better numbers than we would have 
thought of 10 years ago. The message there is that landowners 
are doing a good job managing for wildlife and for the health 
of their lands.
    The economics component, the second component I want to 
talk about, specifically as a part of their research identified 
three types of landowners within our area and those landowners 
are what we call born to the land. Like myself, those people 
have been on the land for generations and have strong 
connection to the land, usually agriculture.
    The second group is what we call the ag group and those 
were folks that went out and made some money and then bought 
land and put that land into ag production and they are really 
more interested in the bottom line, the dollar, how much yield 
they can get off the land.
    The third group, we named the reborn to the land, and these 
are people that went to the city, made some money, came back, 
bought some land, and they are really more interested in the 
aesthetics of the land. They want to do good things with the 
land and they have an interest in things that will do well and 
make them good stewards of the land, and it is that last 
segment that I want to talk about.
    While we found NRCS to be a great partner and would not be 
here if it weren't for them today, one of the things that we 
found in our research is that that last segment is being 
somewhat overlooked through the approaches that NRCS has been 
taking because they are really a kind of a new segment of the 
population and they have the least institutional knowledge 
about farm bill programs or really even what farm bill programs 
are or where to go to find out anything.
    What we found in our research is that those traditional 
landowners and those ag landowners were very comfortable and 
most likely to participate in farm bill programs, but because 
of the outreach and the traditional methods to communicate with 
landowners, that their segment of the population is just--they 
are missing out. In fact, they are more likely to select and 
participate in other types of programs that are out there that 
might lean more toward endangered species recovery or other 
things than they are the farm bill. I really think, as someone 
in the ranching community, that we are going to need to do a 
better job of reaching out to those people, to identifying ways 
to be more flexible and to provide multiple options for 
landowners if we are going to be successful in the future. We 
cannot afford to let that segment of our landowner base slip 
through our fingers, if you will.
    I could talk for a long time about the project, but within 
the 5 minutes, I wanted to make those two points. Landowners 
are doing a good job. The farm bill is key to their success and 
will be key to their future success. And also, we have got to 
do a better job of working with the diverse group of landowners 
that I suspect that diversity is occurring not only in Texas, 
but across a large number of States here. Thank you.
    Senator Crapo. Thank you very much, Mr. Manning.
    [The prepared statement of Mr. Manning can be found in the 
appendix on page 61.]
    Senator Crapo. Mr. Searchinger?

 STATEMENT OF TIMOTHY D. SEARCHINGER, CO-DIRECTOR, CENTER FOR 
 CONSERVATION INCENTIVES, ENVIRONMENTAL DEFENSE, WASHINGTON, DC

    Mr. Searchinger. Thank you, Mr. Chairman and Senator 
Lincoln. I am Co-Director of something called the Center for 
Conservation Incentives at Environmental Defense and our focus 
is entirely on private land incentive programs to encourage 
good stewardship and a major focus is, in fact, on protecting 
endangered species.
    What we know from working with these farm bill programs 
both on the ground and at the national level is that there are 
many valuable success stories. Our biologists in Texas have 
worked with Mr. Manning and his colleagues and there is really 
no greater success story than what Steve has been able to 
achieve, and there are many other examples of that and we know, 
therefore, that landowners, given the right incentives, are 
very interested in doing good things for endangered species.
    I would say, however, that as a whole, the farm bill 
programs have not achieved their potential, and there are a 
number of reasons for that and we go into that in our 
testimony. I will just launch right in and give you a few 
examples.
    The Conservation Reserve Program retires a tenth of the 
cropland in the United States. It is twice the size of the 
Wildlife Refuge System in the 48 States, and it has done some 
great things for a few rare species, particularly a few 
grassland bird species that could very well be on the 
Endangered Species List today or even extinct if it were not 
for CRP. But as a whole, it hasn't achieved its potential.
    Most of the land in the CRP program is probably providing 
minimal wildlife habit right now, either because it has been 
overwhelmed by invasive species--there have been very few 
incentives for good management of that land. Most of the land 
was not planted in native vegetation. Sometimes, non-native 
vegetation can do a good job, but most places, it can't.
    And more generally, when that land was enrolled, the 
criteria for enrollment didn't focus a lot on its location. If 
you want to do something good for endangered species, you have 
to think very hard about where that land is in relationship to 
other land that is providing habitat. You can do the greatest 
habitat in the world, but if it is in the place where the 
endangered species isn't going to come, it is not going to do 
them a lot of good.
    Or similarly, species need different kinds of habitat. They 
need breeding habitat, they need birthing habitat, spawning 
habitat, whatever. It doesn't help a lot to provide one kind of 
habitat if the other isn't nearby.
    Chief Knight talked about the efforts to protect salmon, 
for example. One of the things that is going on is that as the 
streams cross farm roads, there frequently are culverts in 
place to let the stream flow through the farm road, but most of 
those culverts were put in a long time ago when people weren't 
thinking a lot about salmon and they tend to discharge a foot 
or two above the stream, and it turns out salmon don't jump 
very well into culverts. Well, again, if you are going to 
replace the culverts so that they work, you have got to do a 
series in a row. It doesn't make sense to do one here and one 
there.
    So part of the challenge with all these programs is 
thinking in a more coordinated way, a more incentive initiative 
way so that landowners can work together.
    In the case of CRP, I will just make a couple of specific 
recommendations which are--and I should say that we have come 
to agreement with the American Farm Bureau in a number of 
recommendations that we have attached to our testimony, and the 
Nature Conservancy, and one of those is that there are a lot of 
opportunities, we think, to target specific locations where you 
can enroll land in a 200,000 or 300,000 acre chunk in the right 
vegetation with the right management, perhaps using continuous 
enrollment for that purpose so landowners know if they want to 
enroll that land, they can really benefit a chunk of species. 
And that could be done in a way that would really provide 
enormous benefit in a number of places around the country.
    Related to that, it is important that to get more benefit 
out of CRP in the future, we not automatically reenroll all the 
acres but rather have a more selective process.
    With regard to EQIP--EQIP, of course, is the second-largest 
program--unfortunately, only about a half of 1 percent of EQIP 
dollars have gone specifically for wildlife. Since I am running 
out of time, I will just say that the real challenge there is, 
again, the difference between being reactive and having an 
initiative that is more coordinated. Most EQIP dollars are 
spent because landowners expressed an interest in something. 
They come into the local county office and they say, please 
fund this.
    And there are huge problems with doing things for at-risk 
species in that way. One is that there aren't necessarily 
biologists at that county level that know what to do. Another 
is a huge TA. We have a chicken-and-egg problem with technical 
assistance. There aren't a lot of people to provide a lot of 
these biological services. USDA is short of TA in general. If 
they are going to hire people to provide those services, they 
need to know that there is going to be a certain level of 
spending. So they have to decide up front, for the next few 
years, we are going to spend a certain amount of money to 
benefit a species so they can let a contract so that private 
parties can come forward and say, hey, if we go into the 
business of helping deliver this program, we are going to be 
compensated for that.
    I will just in the last 10 seconds just mention the 
Grassland Reserve Program has enormous potential, but the real 
challenge there probably is an issue of easements versus 
contracts. The bill that passed out of the Senate committee was 
a two-million-acre easement program, and if you are thinking 
about preserving grassland to benefit not just the ranching 
community, but rare species over the long term, a 10-year 
contract just doesn't do it. It just postpones the eventual 
development. The final bill that emerged was primarily a 10-
year contract bill that won't really preserve these lands over 
the long term. It doesn't, therefore, warrant the kind of level 
of investment.
    So thank you very much. I appreciate the opportunity.
    Senator Crapo. Thank you very much, Mr. Searchinger.
    [The prepared statement of Mr. Searchinger can be found in 
the appendix on page 69.]
    Senator Crapo. Mr. Foster?

    STATEMENT OF KENT J. FOSTER, EXECUTIVE DIRECTOR, IDAHO 
    ASSOCIATION OF SOIL CONSERVATION DISTRICTS, BOISE, IDAHO

    Mr. Foster. First, thank you, Mr. Chairman and Senator 
Lincoln, for allowing us to testify before you here today.
    Second, I wanted to thank Senator Crapo personally for his 
past efforts in assisting Idaho with both the salmon and sage 
grouse initiatives through the USDA NRCS, so thank you for 
these efforts.
    Today, Idaho's core conservation partnership is strong, and 
for over 65 years, our goal has been and still is to assist 
private landowners to conserve and protect their natural 
resources--soil, water, air, plant, animal, and wildlife. As we 
work to achieve this goal, we must not forget that humans are 
also a part of the equation.
    We believe the 2007 farm bill needs to support appropriate 
species conservation issues. We also believe the ESA is in need 
of revision to make some of the farm bill provisions more 
participant-friendly.
    The 2002 farm bill provided substantial increases in 
financial assistance for all conservation programs. However, it 
is the technical assistance that is key to getting conservation 
implemented on the landscape in a technically sound and timely 
manner.
    To better support species conservation, we feel the 2007 
farm bill needs to consider the following. If attainable, a 
national programmatic biological assessment needs to be 
developed. If not, it would be helpful to develop biological 
assessments on a regional or large ecosystem area basis. 
Currently, any conservation practice to be installed within the 
salmon watershed must have consultation with NOAA Fisheries or 
U.S. Fish and Wildlife Service. The consultation process can 
take up to several months. In these cases, the construction 
window is often missed and projects are often delayed until the 
next year's construction season.
    The consultation process can be very repetitive. Writing 
individual biological assessments is very time consuming. I 
have been told by our people in Idaho, that Idaho has never had 
a biological assessment disapproved by the Fish and Wildlife 
Service or NOAA Fisheries. Then how many biological assessments 
have to be written before some change in the process is 
warranted?
    The Healthy Forest Reserve Initiative needs to be passed 
and funded. The safe harbor provision needs to stay intact 
through the committee process. This provision will encourage 
landowners to do the right thing in addressing their natural 
resources and species conservation issues.
    There are too many identified species of concern for farm 
bill programs to realistically and effectively address. 
Available funding should focus on endangered, threatened, 
candidate, or proposed species for listing.
    We heard the NRCS chief use a figure of 70 percent, but I 
had a figure of 75 percent of the listed species that depend on 
private land for all or part of their habitat. Incentives are 
needed to protect or enhance existing declining habitat.
    More technical assistance funds are needed to develop 
adequate and effective conservation plans and habitat 
conservation plans. This funding support needs to come from 
each individual farm bill program. Species issues are not 
easily resolved. They are generally very complex and usually 
require input from a team of interdisciplinary experts to 
resolve the resource issue, sometimes even multiple interagency 
input is also required.
    Farm bill programs could better support species 
conservation if they were more habitat- or ecosystem-driven and 
not single species-driven. Balance is key to what leads to a 
holistic and healthy environment. Balance must not only include 
biological, but social and economic factors.
    It is paramount that the government allows land users and 
citizens to go forward with innovative ideas that will bridge 
the gap between our finite resources and species conservation. 
There is a fear of endangered species, because the law focuses 
on punishing those who do not comply rather than rewarding 
those who voluntarily engage in conservation efforts.
    With our limited resources, we need to make a concerted 
effort to find better and more cost-effective solutions. We 
need to get the Federal Government out of the way and let the 
States be innovative and get conservation on the ground.
    By working together and using a realistic and common sense 
approach, we believe the farm bill and ESA issues can 
effectively be addressed. Thank you.
    Senator Crapo. Thank you very much, Mr. Foster.
    [The prepared statement of Mr. Foster can be found in the 
appendix on page 82.]
    Senator Crapo. We thank our entire panel.
    Just to let you know what is going on, the first vote of 
the five started at 10:48 and so at about 11, which means I 
will have about 3 minutes left, I am going to have to go. 
Senator Lincoln has already gone to vote, and if she is not 
back by 11, I will recess the committee and she should return 
very quickly after that and start the committee up again, so 
don't go anywhere when I recess.
    Then what we will try to do is just rotate. I will vote at 
the end of each vote and she will vote at the beginning of each 
vote--what I will do is I will go vote at the end of one and 
the beginning of the next one, and then she will vote at the 
end of one and the beginning of the next one and so forth. That 
may not really work as we get well into it, because when they 
ultimately get most of the Senators over there, the votes start 
happening a little faster, so we will try to do that as best we 
can.
    In the few minutes I have, I just want to ask a general 
question to the panel, and that is I think you probably all 
heard me say at the outset that this notion of utilizing the 
conservation title of the farm bill to provide incentives for 
endangered species recovery is a bit of a step beyond where we 
have philosophically been with the farm bill in the past, but 
it certainly, in my opinion, is not stepping beyond the spirit 
of what we were trying to do in the farm bill.
    And the question is to each of you, and please try to be as 
succinct as you can, do you see any conflict in trying to move 
the farm bill philosophy as we develop the next conservation 
title in the farm bill into closer coordination with endangered 
species recovery goals? I will just throw it out to--you don't 
all have to answer, but if you have an answer on that, I would 
welcome it.
    Mr. Searchinger. I would say the answer is there is 
certainly no conflict, and in fact, I would even go so far as 
to say the statutes encourage it right now. EQIP has wildlife 
as one of its goals as well as avoiding regulatory pressures as 
one of its goals. Put the two together, endangered species 
conflict avoidance is already in the statute.
    Senator Crapo. Mr. Cummins?
    Mr. Cummins. With the Wildlife Habitat Incentives Program, 
it specifically mentions threatened and endangered species, so 
I think you have a precedent there. I think there is a great 
opportunity, as we are constantly working to figure out how to 
best use our dollars in this country, there is a great 
opportunity of trying to meet TMDO requirements, to meet 
endangered species requirements, and balance a lot of different 
things out there. We can do a lot on one acre that we may not 
can do by spreading that out.
    Senator Crapo. Mr. Manning or Mr. Foster, do you want to 
jump in?
    Mr. Foster. Mr. Chairman, I think we ought to encourage 
that. I think it is important that we don't have different 
programs going against each other. I think we have made a lot 
of strides in trying to make them work together. I think there 
are just some things that we need to tweak to reduce the amount 
of time it takes so we can do even more through the two 
programs.
    Senator Crapo. You don't have to pile on unless you want 
to, Mr. Manning.
    Mr. Manning. I will just say very quickly that from a 
landowner's perspective, I think that not only is it--I don't 
see a conflict, but it gives the landowners the ability to get 
more out of the regulatory business, and from the Fish and 
Wildlife side, more from the incentive side with the farm bill 
programs and have a better chance of accomplishing the goals 
that we all desire.
    Senator Crapo. Well, thank you. I am going to ask one more 
question of you specifically, Mr. Manning, and then I am going 
to recess it if Senator Lincoln is not back yet. But I did, 
before I left, want to ask you--I want to say I am impressed 
with the level of study that your partnership has conducted. 
But the upshot of your work is that you have, frankly, you have 
actively restored bird populations, isn't that right?
    Mr. Manning. That is correct.
    Senator Crapo. Could you describe, just, again, briefly, 
because I just have about 60 seconds here, what you think the 
core success there was that enabled you to restore bird 
populations?
    Mr. Manning. Well, having a core group of NGO's and 
agencies working together in agreement and building out from 
that, and I won't try to list those for the time constraints, 
but obviously Environmental Defense is one of those. Basically, 
ag and environmental entities working together and then 
building out using their lines of communication to influence 
the State agencies and then the Federal agencies ultimately, 
and RCS and Fish and Wildlife in this case.
    By doing that, we were able to bring those two agencies 
together and go through the Section 7 process and get to an 
opinion that allowed us to use Federal dollars and put them on 
the ground in such a way that we were able to put those Federal 
dollars through EQIP into wildlife habitat where before we had 
not been able. And that gave us the funds and the technical 
assistance that we needed to get that done.
    Senator Crapo. All right. Thank you very much.
    Again, I apologize, but I am going to recess now. I am not 
sure whether Senator Lincoln is going to vote on the next vote 
before she comes back or whether she is already on her way back 
here. She is on her way, so she should be here very quickly. 
Until she arrives, this committee is in recess.
    [Recess.]

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln [presiding]. I am so sorry for the 
interruption, but I am afraid with four stacked votes, there 
are probably going to be multiple interruptions. Senator Crapo 
and I have agreed to try to keep as much going as possible. We 
will just kind of tag team back and forth.
    I want to first say, and he is not here to hear it, and I 
will repeat it as many times as I need to, a special thanks to 
Chairman Crapo, who has done a tremendous job in this 
subcommittee. He and I came into the House together in 1992. We 
came over to the Senate together. We have served on multiple 
committees together. I wasn't here earlier because I was 
covering us over in the Finance Committee, where he also serves 
with me. But it is really a pleasure to work with Senator Crapo 
and his staff. They do a tremendous job. They are very 
thoughtful about what they do and it is just a delight to share 
this subcommittee with him.
    As is obvious from today's hearing, I think, he always 
focuses on very worthwhile hearings that focus on issues that 
are very important to people. We don't hear them all the time 
on the front page of the paper sometimes, but these are issues 
that really affect people every day and they are very 
important, conservation provisions that were included in the 
2002 farm bill, their role in protecting endangered species, 
but also allowing lifelong generations of family farmers to be 
able to do what they really want to do.
    I come from a seventh-generation Arkansas farm family and I 
know there is no greater conservationist in the world than my 
father was in terms of wanting to preserve the land and to do 
the best that he could to ensure that that land would be in the 
family for generations to come.
    So we are very appreciative that you all are here. I think, 
having looked at the 2002 farm bill as playing such an 
important role, I certainly supported it because of the 
importance it plays in my State and my State's rural economy 
and the way of life that we have there. I think some of the 
more notable parts of that legislation was its historic 
increase in conservation. Obviously, it is important for us to 
fund that and to elevate those conservation components to the 
extent that people nationally will recognize how important a 
role they do play.
    Conservation programs are not only an environmentally sound 
practice, but they produce a wide range of economic benefits. 
We have seen that in our State. I think we have all seen that 
nationally. Environmentally, our conservation programs 
definitely safeguard millions of acres of American topsoil from 
erosion and certainly improving air quality, increasing 
wildlife habitat and protecting ground and surface water 
quality by reducing water runoff and sedimentation.
    But economically, the benefits are also immeasurable. The 
program not only increases net farm income, they preserve soil 
productivity, they improve surface water quality, they reduce 
damage from windblown dust and increased uses of wildlife, 
which we have talked about an awful lot here today.
    The dual benefits are critical to the long-term 
sustainability of American agriculture and provide certainly 
the much-needed bridge between an adequate farm safety net and 
resources necessary to conserve our land. And again, as a 
farmer's daughter, those two are essential components to the 
way of life that many of us know, living and having grown up in 
rural America.
    As you all know certainly, our State has one of the most 
diverse and natural ecosystems in the country. My neighbor, Mr. 
Cummins across the river, is certainly well aware because we 
have very, very similar habits and certainly very similar 
homes.
    We saw earlier this year through the discovery of the 
ivory-billed woodpecker in Arkansas that when we dedicate 
resources to protect our natural habitats, we can successfully 
preserve them, and I think many of you all have spoken to that 
in terms of not just dealing with preservation but management, 
which is critical to what we want to see eventually happening 
in terms of habitat and species.
    It is my hope that this story, certainly the ivory-billed 
woodpecker, and others like it will encourage all of those with 
an interest in preserving our lands and our native species to 
take a renewed look at the impact that conservation can have on 
those goals. I was very, very interested to hear Mr. 
Searchinger talking about the fact that with all of the 
interest and involvement and investment in CRP, that it is two 
times, did you say, two times the reserve program?
    Mr. Searchinger. Two times the size----
    Senator Lincoln. The size----
    Mr. Searchinger [continuing]. Of the Wildlife Refuge System 
in the 48 States.
    Senator Lincoln. That is amazing to me, which is also an 
indication that, again, there is a huge interest in terms of 
landowners and others to be involved in this overall process.
    I think we can certainly all agree that supporting greater 
conservation would have a positive effect on maintaining 
natural diversity and preserving wilderness for future 
generations, and we want to thank you all for being willing to 
be here with us today.
    I also want to comment that I am really looking forward in 
the next couple of weeks to working extensively with Senator 
Crapo as chairman of this subcommittee in the ways that we can 
go about setting forth, I think, some proactive--I noticed that 
that was also a comment of more than one of you all, and that 
is not to just react, but to be proactive in ways that will be 
very, very productive for wildlife habitat, for conservation, 
and certainly land preservation.
    So with that said, you all can transmit to the chairman how 
much I appreciate working with him and certainly the incredible 
job that he does, and I am looking forward to that.
    To the questions, I think I will start in on some 
questions, because I know the chairman will be back and I will 
try to, again, switch hit and head back over and do my voting 
on the floor.
    Mr. Searchinger, you mentioned in your testimony the 
importance of encouraging conservation amongst a broad range of 
landowners. What do you really think, in your opinion, is the 
best or most effective method of being able to do that? 
Funding, probably, for starters.
    [Laughter.]
    Mr. Searchinger. Certainly, the Wildlife Habitat Incentive 
Program does a lot and it is a little bit of a political 
orphan, so any Senator wishing to adopt a wonderful infant but 
burgeoning program, it is available for adoption.
    But as a whole, I think the question was asked of Mr. 
Manning, what made his program so successful, and he talked 
about the cooperative nature of the work being done, that the 
work was planned out, there was word of mouth, there was 
adequate technical system and outreach. Every single example 
that is going to be provided at the White House Conference on 
Cooperative Conservation is going to have a comparable story. 
So this notion of being proactive is absolutely critical, and I 
will just give you one other concrete example.
    Take the long-leaf pine forest there in your neck of the 
woods. There are a lot of opportunities to--there are a lot of 
endangered species that rely on long-leaf pine forests and a 
lot of opportunities to enhance habitat for long-leaf pine 
forests, and there are landowner groups very interested in 
long-leaf pine and there is some economic value to producing 
tall timber down the road.
    But to do that right, the best way to do it, for example, 
through the CRP program, would be to say we are going to make 
certain specific lands eligible for enrollment in long-leaf 
pine if you manage it in a particular way. And then we are 
going to have a technical assistance issue. Who is going to 
actually deliver that program? And then USDA needs, because it 
doesn't have the staff anymore, NRCS is delivering five times 
as much money in programs as it used to have. They are just so 
busy. It needs to say, we know we are going to have this much 
work and issue a third-party contract to maybe Mr. Manning's 
group or maybe Mr. Cummins's group to help deliver that 
program.
    So all of these things have to come together to work right, 
and so the most important thing, I would say, is having 
proactive, cooperative projects and delivering all of these 
programs, to the extent we can, through cooperative projects 
with producer groups, local conservationists, and government.
    Senator Lincoln. You mentioned, I think it was you that 
mentioned the shortage of time. Perhaps that was the 
grasslands, that 10 years was way too short for that type of a 
program. In terms of CRP, I mean, is the length of that time 
adequate in order to really get off the ground and running a 
long-leaf pine program as expeditiously as we would want?
    Mr. Searchinger. In the case of long-leaf pine, the good 
news is that it probably becomes in the economic interest of 
the landowner, once he or she has received that incentive for a 
ten- or 15-year contract, to keep the timber there for 50 years 
or so because that is when it matures and becomes valuable.
    But certainly, I think one of the things the committee 
should consider for the future is longer CRP contracts where 
there is a critical need to benefit an at-risk species, because 
if we are going to make a heavier investment in the kind of 
planting, let us say, then we want to realize that benefit over 
a longer period.
    Senator Lincoln. You have also mentioned the shortage of 
technical assistance through USDA. I have had a few phone calls 
from my State with concerns about that, and, of course, 
technical assistance both from the biological standpoint, but 
also from the paperwork standpoint. Many of these programs are 
complicated. There is lots of paperwork.
    There was one concern that the move of EQIP from the FSA to 
the NRCS, which I think it went to NRCS under application, has 
actually been detrimental to the use of the program just simply 
because you have had to reinvent the wheel. You have had to 
move that program over to a new part of the agency, figuring 
out how to go through that.
    Do you see any concerns about those types of problems, 
where if we continue to move these programs around, we lose the 
institutional history of technical assistance, particularly in 
regard to paperwork?
    Mr. Searchinger. Let me answer that in a couple of ways. 
Most importantly is the bottom line is that we are delivering a 
lot more money with roughly the same numbers of NRCS staff, and 
the administration made the decision to focus on third-party 
assistance, which has some merit, but we have the chicken-egg 
problem in delivering third-party assistance. No individual or 
organization is going to come forward and say, I will deliver 
this program--I am going to hire staff to be able to deliver 
these programs unless they know they are going to have enough 
work to pay the staff.
    Senator Lincoln. Yes.
    Mr. Searchinger. And so that means--and, of course, these 
things are specialized. If you want a biologist who knows about 
long-leaf pine, you need a biologist who knows about long-leaf 
pine. So they need to know they have a certain amount of work, 
and so to deliver these programs more effectively, there has to 
be certain decisions, we are going to put a certain amount of 
money in X as opposed to Y and then hire a contract to do that. 
In the case of continuous enrollment with CRP, for example, it 
has dropped off the cliff. This is the kind of buffer program 
because NRCS is too busy to promote it.
    With regard to your specific question, I think there was--
NRCS has managed EQIP from the programmatic side since it was 
created, but I think there was a paperwork transition that you 
referred to in going from FSA to NRCS. I don't honestly know 
enough about all of that.
    But I will say, again, and I am going to sound like a 
broken record, typically, it is possible to streamline the 
paperwork when you have worked out a kind of project, and then 
you can simplify the paperwork for those who want to 
participate in a particular kind of practice. So again, 
paperwork is a huge issue, and particularly--landowners who are 
doing something for endangered species are not helping the 
bottom line, typically, and so if they are going to have to do 
a heck of a lot of paperwork, they are not going to do it. So 
streamlining the paperwork is critical, and again----
    Senator Lincoln. Would you consider that one of the proper 
incentives that you talked about?
    Mr. Searchinger. Well, actually----
    Senator Lincoln. Streamlining that paperwork?
    Mr. Searchinger. Yes. I would agree with that, absolutely.
    Senator Lincoln. Mr. Cummins, I have to say I am so proud 
you mentioned kudzu.
    [Laughter.]
    Senator Lincoln. I grew up in a community that is about 
covered in it. And although its original intent may have been 
noteworthy, we have found, particularly in some of our smaller 
hardwood forests, national forests, it is absolutely consuming 
it and there are some real concerns there. So I am just glad 
you know what it is and have equal concerns.
    In your testimony, you talked about active management 
versus preservation. I have mentioned that, as well. It seems 
to tie in with one of the major, I think, criticisms of ESA, 
the Endangered Species Act, mainly that while many of the 
endangered species have stabilized, few have really recovered. 
Our hope is that we will see recovery of the ivory-billed 
woodpecker, and that is one of the things in terms of both 
conservation, active management, and preservation we hope will 
all come together for us in Arkansas.
    Could you talk just a little bit about that active 
management and the role that it could play in any of our 
discussions about improving ESA?
    Mr. Cummins. Yes. First, I would like to just certainly 
thank you for your leadership in Arkansas and this great 
nation, as well, and really enjoy working with people like West 
and others.
    Senator Lincoln. Good.
    Mr. Cummins. There are a lot of good people in Arkansas, 
and I contribute a lot to your economy through trout fishing.
    [Laughter.]
    Mr. Cummins. In terms of how we go about looking at active 
management, for example, we have a tremendous amount of 
conservation easements that are through the tax code that you 
in Senate Finance are looking at and it is a great opportunity 
to even address active management there.
    Mr. Searchinger talked about long-leaf pine. Long-leaf pine 
is a great example of how we go about conducting management, by 
going in, planting long-leaf, doing selective harvest. I think 
there is a great opportunity with the ivory-bill, for example. 
The trees we plant today, they are not going to provide the 
grubs and food source for the ivory-billed woodpecker until 
probably 100 years from now, but if we can go through some of 
those existing stands that are adjacent or in close proximity 
to the siting or the location of the siting and go in there and 
inject those or girdle them, in other words, kill those trees, 
a lot of that is going to be sweet gum and hackberry, which are 
the two preferred species that the ivory-billed likes, and you 
will end up with the situation that about two to 4 years from 
there, from the time of injection or girdling, that you will 
provide a lot of grubs and a lot of insects between that bark 
and that cambium layer that are good for that tree, whereas if 
we just went in and preserved a stand, you have got to wait 
until it goes through its entire life cycle before it lives, 
grows, and dies.
    So I think active management is really a key. If you look 
at a lot of the private lands biologists to the U.S. Fish and 
Wildlife Service or a lot of the biologists that are within 
RCS, we have the technical skills out there to go about doing 
management, and let me--I left out the range specialists and 
foresters, as well, because that is a tremendously important 
component.
    But the technical skills are out there that will allow us 
to go in and do the management, but we have got to get over 
this fact that chemicals and chain saws and management tools 
are bad and how do we put those to our best use.
    Senator Lincoln. I noticed one of you all mentioned carbon 
credits. I am not sure who it was. But there is also an 
importance, I think, there to look into and investigate the way 
that we can dovetail that active management with the carbon 
credits that are slowly becoming--I know for many of our 
landowners have been very beneficial. We have also been able to 
see where we have actually been able to save the Federal 
Government dollars by putting to use those carbon credits and 
also letting private industry come in and do the plantings and 
make sure that, obviously with the guidance of USDA and the 
others that it is being properly, but actively managing those 
lands in a way that are highly productive.
    Mr. Searchinger, when you were talking about the CRP 
program, you were talking about that with two times that amount 
of the--not the Reserve program, but the----
    Mr. Searchinger. Of the Refuge System.
    Senator Lincoln. --Refuge System, you said it still 
provides minimal in terms of that volume, or it is certainly 
less than it could. And you also mentioned that it was not 
necessarily planted in native vegetation. Why is that? why 
would it not be?
    Mr. Searchinger. Well, when the program was first created, 
it really had a surplus as much as anything, and the goal was 
just to get cover on land of any type as much as possible. And 
over time, there has been a greater emphasis on more 
environmental benefit, but even in the more recent sign-ups, 
there is just not that much of a difference in the amount of 
points you get. You know, there is a selection index that gives 
you points for doing different things----
    Senator Lincoln. Right.
    Mr. Searchinger. And there is not that much of a point 
difference for planting natives versus non-natives.
    Senator Lincoln. But it just seems to me like it is a no-
brainer that you would put it into native vegetation.
    Mr. Searchinger. I would agree with you in the overwhelming 
majority of the country. Our colleagues who are interested in 
ducks in the Northern Plains believe that there can be wildlife 
mixes that provide almost as much benefit that are non-native. 
But in the vast majority of the country, native is the right 
thing to do.
    And this is where we think there are opportunities to 
improve CRP in the next generation, and it really was 
interesting. We went through a long series of conversations 
with the American Farm Bureau and the Nature Conservancy and 
one of the things that I think has emerged is a consensus by 
producer groups as well as conservation groups that now is the 
time to really try to maximize the environmental benefit per 
acre from that program. We are no longer interested in using it 
as a supply control program. We are interested in using it to--
from the Farm Bureau's perspective, I think--I don't want to 
speak for them too much, but to relieve pressures, regulatory 
pressures on landowners through this incentive-based program, 
from our perspective, to get every possible benefit out of the 
acre.
    So we think that there are real opportunities and the two 
immediate issues are, one, that the criteria in the future need 
to meld the importance of location, native species, and 
management. Management is the key issue. There is not a lot of 
financial incentiveto manage the land well once it is planted. 
Those need to be melded, and I think if you--we need to think, 
hey, what do we need to do, for example, with CRP that could 
benefit the ivory-billed woodpecker in Arkansas? That is a 
decision people should be actually consciously thinking about. 
There will be a series of activities--management activities, 
plantings, et cetera--and if it is done that way, we can get a 
heck of a lot more benefit.
    There probably are about a half-a-dozen rare species that 
benefited significantly from CRP, and that is good, but it is 
not enough. There should be several dozen that have gotten a 
real big benefit.
    Senator Lincoln. Well, without a doubt, having gone through 
the Healthy Forests Initiative and working with Senator Crapo 
and having experienced in Arkansas the red oak bore, which 
annihilated a part of our forest, our national forest, in just 
3 years, it was phenomenal. But to in retrospect look back and 
see that because of the way that maybe the forest may have been 
managed without diversity of species and other things, causing 
all the moon and the stars to align and for something like that 
to really be as devastating as it was, it has been clear to me 
that management is really a critical tool.
    Do any of you gentlemen have anything further to add or 
want to make sure that we pay specific attention to? Mr. 
Foster?
    Mr. Foster. Senator Lincoln, I just wanted to add to what 
Mr. Searchinger said earlier about CRP. I think we have to--I 
am just speaking from out West in our drier climates out there, 
but if I remember correctly, to qualify for CRP, it had to be 
cropland, highly erodible, and meet some other criteria. To be 
honest with you, in 1985 when the first CRP seedings were made, 
I think a lot of the considerations at that time didn't have as 
many ESA or wildlife thoughts put into them. CRP was put in as 
inexpensive as it could be to get cover on that land, and being 
cropland, landowners didn't want to put trees and shrubs on it, 
not knowing how long the program might last and whether they 
may be converting it back to cropland again in 15 years.
    So I think Mr. Searchinger is right, we don't have some of 
the shrubs and trees that we actually should have for good 
habitat for some of the key species. Some of the fault is ours, 
but it is also due partly to the system as to what qualifies 
and what doesn't, and what is economical to do etc.
    Senator Lincoln. And that brings up another point for us. 
Of course, that is one of the great things with working with 
Senator Crapo, is being from the South and the Delta and him 
being out West, we really try to bring a huge diversity in 
ensuring that these programs work for everybody.
    You are exactly right. There is not a one-size-fits-all 
necessarily and certainly the habitats that we want to preserve 
are tremendously diverse and that is critical.
    But the other thing is understanding certainly the 
dependability of these programs. I know that for us, and we are 
one of the larger users of the Wetland Reserve Program, we have 
got more than 50 percent of our Wetland Reserve lands in 
Arkansas that come up for renewal. Being able to have some 
dependability on those programs is critical, too.
    I want to thank you all very much for your very thoughtful 
presentation and testimony. Just so you know, Mr. Chairman, I 
have just been singing your praises.
    Senator Crapo. Well, that is what I heard. I will have your 
payment ready after the hearing.
    [Laughter.]
    Senator Lincoln. There you go. I do want certainly this 
subcommittee and these people who we will depend on an awful 
lot in the coming months to help us work through the issues 
that you and I have--well, we have come through Congress 
together, 1992 to 1998 and here, but you have just done 
tremendous work in this subcommittee and I am so proud to serve 
with you and I am looking forward to the next couple of months, 
where you and I can really focus in on the Endangered Species 
Act and the conservation programs and really put together 
something thoughtfully that will be enormously helpful to all 
of those concerned. So I am grateful for your leadership. You 
do a tremendous job.
    Senator Crapo. Thank you very much. As you know----
    Senator Lincoln. And I will hand you back the gavel.
    [Laughter.]
    Senator Crapo [presiding]. All right. You know the feelings 
are mutual. You probably told them we sat together in the 
Commerce Committee in the House and we have been working 
together ever since. I think that Senator Lincoln and I have 
shown that you can do bipartisan work here and get really good 
things done.
    Senator Lincoln. And to that extent, also, not only in 
terms of bipartisanship, but as well as regional.
    Senator Crapo. That is right.
    Senator Lincoln. I mean, we have worked together on the 
Healthy Forests and others to make sure that everybody's 
concerns are being met. So I am grateful to you. Thank you, Mr. 
Chairman.
    Senator Crapo. All right. Thank you.
    As is obvious, we started our second vote. I don't expect 
you to come back, is that correct? I will probably have just a 
few minutes here, like maybe ten, and then what I am going to 
do at that point, since it is getting too tight over there, is 
conclude the hearing and we will send out written questions to 
you for those we didn't get to ask.
    One of the questions--and, by the way, I thank you for 
being so patient with our problems here. I am actually very 
pleased that we were able to keep the hearing going.
    One of the issues that Mr. Searchinger raised in his 
testimony that I would like to kind of discuss with all of you 
is in the context of the CRP program and trying to focus the 
qualification for CRP a little better in terms of species 
recovery. Mr. Searchinger, you raised the question of whether 
there should be automatic reenrollment. I don't really want to 
start a fight here, but I would like to know what everyone 
else's position on that issue is, because obviously, that is a 
very big issue that we are dealing with right now.
    Do any of the others of you have a perspective on that? Mr. 
Cummins?
    Mr. Cummins. Yes, sir. Especially in the South, a lot of 
the lands are generating something with economic value. Some 
lands in the West and in the Midwest, except when you are using 
them for emergency haying and grazing, you are not generating a 
lot of economic value.
    I think as we start looking at this very touchy issue of 
reenrollments, I think we need to look at what are the 
environmental benefits? What are the threatened and endangered 
species, and maybe even a special threatened and endangered 
species index?
    We have seen a huge issue is that of loblolly pine. There 
may be opportunities that a landowner could go in and convert 
that loblolly stand to long-leaf, like Mr. Searchinger 
mentioned, and continue to reenroll and him or her sell that 
loblolly for pulpwood, for example.
    But I think there are great opportunities to gain more from 
already existing lands to maximize the potential, as Mr. 
Searchinger mentioned.
    Senator Crapo. Thank you.
    Mr. Manning?
    Mr. Manning. Well, CRP is not my strong point. I would just 
say that just from a common sense standpoint, obviously, things 
have changed somewhat since 1985, I think when we first started 
talking about those enrollments, and we do have a little more 
consideration and concern for the ESA standpoints. Any time we 
can take advantage of those programs and lessen restrictions 
somewhere else across the board, we should do so.
    Senator Crapo. Mr. Foster, did you want to weigh in?
    Mr. Foster. Sure, might as well while I am here.
    [Laughter.]
    Mr. Foster. I don't know. I haven't studied the 
reenrollment issue, but while you were gone, we were talking a 
little bit about CRP with Senator Lincoln. A lot of our land, 
as you probably know, in Idaho and out West, went into CRP. It 
had to be highly erodible cropland. Some of that ground should 
have probably never been farmed in the first place and it was 
taken out and grass with very few shrubs and trees for species 
conservation benefits.
    I would think those wanting to reenroll, might be provided 
some incentives to do some additional things or plant some 
shrubs and trees to benefit key species. We need to work 
together on this rather than just reenroll them and do the same 
thing. In emergency situations, they graze CRP, in drought 
conditions and situations like that. If we continue to have 
requirements for emergency grazing of CRP, possibly we could 
have some requirements that would benefit habitat for key.
    Senator Crapo. Thank you.
    Mr. Searchinger?
    Mr. Searchinger. If I could clarify, our specific position, 
which we share with these other groups like the Farm Bureau, is 
that if there are automatic reenrollments, they should be 
highly selective, for example, where you could benefit a rare 
species or a critical duck habitat.
    There is also a related issue of the fact that there are 22 
million acres that are expiring in 2007 and 2008, and our 
recommendation there is to have a series of short extensions so 
that you can even out that hump. And one reason not to 
automatically reenroll everything is that there are a lot of 
farmers who may be interested in enrolling land who aren't in 
the program right now and there has to be some fairness to 
them, as well, to be able to compete.
    Senator Crapo. Those are all good points.
    Mr. Foster, let me turn to you for a moment. In your 
testimony, you state that the press of the Clean Water Act 
business, mainly completing the TMDLs, is limiting NRCS's 
ability to carry out its mandated 2002 farm bill 
responsibilities. If it is struggling with the basics, then my 
guess is that the NRCS isn't able to innovate to address the 
ESA issues very well, either, at this point. Is that a fair 
assessment on my part?
    Mr. Foster. Senator, I think they are doing all they can. 
They take their reponsibilities very seriously. In my other 
testimony, I talked about a programmatic biological assessment, 
this would help them a lot. It is just overwhelming. The farm 
bill mandates that they have to do, and then in our State, as 
you know, in 1995, having 8 years to deal with 962 water bodies 
and cover them by TMDL is----
    Senator Crapo. It is daunting.
    Mr. Foster [continuing]. It is shocking. Our partnership 
has leveraged everything we can between State and Federal funds 
and help and I think we are keeping our heads above water, but 
it is a pretty tough thing to do.The NRCS is making an effort, 
but they are just overwhelmed. What we have done through some 
cooperative agreements with NRCS, the Soil Conservation 
Commission and Districts is leverage our funding to help in the 
field and EQIP work in TMDL areas so we are kind of doubling up 
on things rather than going our own seperate ways.
    Senator Crapo. So they are where they can. Certainly, these 
folks are doing yeoman's service and we owe them all a great 
vote of thanks. I am just convinced that we are loading so much 
on that we aren't necessarily able to get the focus on some of 
these new ideas when we have got so much existing programmatic 
requirement that is taking up all of the effort and time.
    Mr. Foster. That is part of the reason, Senator, for a 
programmatic biological assessment. NRCS is now grouping BAs 
together where they are similar. But if we do practice after 
practice, the same thing over and over, why is consultation 
still necessary? The Fish and Wildlife Service can approve work 
in State. NOAA Fisheries, must approve all work out of the 
State, which may take several months to get approved and 
returned.
    Senator Crapo. Right. One other question, primarily because 
I am so proud of it, I would like to hear a little bit more 
about the successes that you have had with the Upper Salmon 
River Watershed Project. I think it is a good example of the 
kind of thing we need to be doing nationwide. Could you just 
share a little bit more about that with us?
    Mr. Foster. I think the USBWP has been a pretty good 
effort. I have to apologize, Senator, because the information I 
had from the start was to talk mainly about changes in the new 
farm bill to better address some of the ESA issues and species 
conservation. I haven't talked a lot about our successes and it 
is not true that we haven't had successes. I think the Upper 
Salmon Basin Watershed Project is a good example of a very 
successful project.
    The Governor established the USBWP and assigned leadership 
to the Soil Conservation Commission and Districts. There has 
been a lot of good cooperative work up there. BPA funds have 
been used to do a lot of fishery habitat-type work with the 
landowners, Bureau of Reclamation, Idaho Department of Fish and 
Game, and numerous other agencies to make habitat improvements.
    They have installed fish screens so that the fish don't get 
out in farmers' delivery systems and trapped and killed out on 
their fields. There has been a good cooperative effort with 
landowners and everyone. Some landowners have even used some of 
their own water, as flush flows at certain times to make sure 
fish migrations might take place. I really think in some cases, 
we are getting to where we may have more habitat up there than 
we have fish, but----
    Senator Crapo. Well, we are going to try to figure that 
out. Please take my congratulations back to all the folks there 
in the watershed project because I want them to know that what 
they are doing is not only helpful there, but it is giving us a 
good model here nationally to look at. I am a strong believer 
in collaborative efforts and this is the kind of thing where--I 
can remember not too many years back when the community there 
was fraught with conflict, the threat from year after year, one 
aspect or another of Federal law just hammering the community 
on an economic basis. Instead of reacting in the wrong way, the 
community came together, developed a collaborative approach to 
these issues, is working closely with all of the Federal, 
State, and other agencies, and really is doing a tremendous job 
there. So please take my congratulations back to them.
    Mr. Foster. I will. Thank you.
    Senator Crapo. Mr. Searchinger, what do you think is the 
right balance between land acquisition, regulation, and 
incentives? And where I am going here is, isn't it time--I am 
not saying that we need to stop any of our current efforts, but 
isn't it time that we increased the focus on incentives?
    Mr. Searchinger. Absolutely, and I think you have been a 
leader on this issue. If I take the grand historical 
perspective, this country has had two major focuses in 
conservation. It has had the public land acquisition focus that 
goes back to the late part of the 19th century and Teddy 
Roosevelt. It has had the stewardship regulatory side, or the 
regulatory side of things. But private land is 70 percent of 
the land in the United States and it is almost inconceivable 
that we have put as little focus as we have on providing 
incentives to private land stewardship. It is just 
extraordinary.
    It has got to be one of the three pillars of conservation 
and I think it is a great opportunity and the agency that can 
probably do that is USDA, because the vast majority of private 
landowners are farmers, ranchers, or private forest owners and 
USDA has the infrastructure for working with those people and 
we don't want to duplicate it.
    Senator Crapo. Thank you. I just have to say, I completely 
agree and I hope we can get that idea well understood 
throughout the communities.
    You propose up to 100 percent cost sharing under EQIP for 
situations in which landowners are willing to enhance their 
habitat for endangered species. Tell me what kind of a priority 
system you would recommend in that context for allocating the 
available funding.
    Mr. Searchinger. One of the reasons that EQIP hasn't done 
as much for endangered species is that there have been some 
mechanical problems in the ranking criteria. To give you some 
example, most ranking criteria put everything in one ranking 
system. So if you were going to do a manure management 
proposal, you could beat out another manure management proposal 
if you did a small wildlife project that really wasn't worth 
much but you got points for wildlife. So you had situations 
where the wildlife dollars were going to help producers who 
really wanted money for manure management beat out other manure 
management producers not because it was a very valuable 
wildlife proposal.
    Now, NRCS is going to come out with some national templates 
not to mandate selection criteria, but to show mechanically how 
it can be done better, and one of the goals should be to have 
separate ranking criteria. So maybe only 5 percent or 10 
percent of the money in a State will go into wildlife, but at 
least it will be evaluated against other wildlife proposals.
    So the first thing is to have separate ranking criteria so 
that you can say, among the wildlife proposals, what are the 
most valuable to address the real key potential regulatory 
concerns that we will have? That is the first issue.
    The second issue is probably to do that at the State level. 
Most money now is distributed at the county level, but county 
offices tend not to have a lot of biological expertise. So at 
the State level, you get more intermingling of multiple 
agencies and more opportunities for coordination.
    And then the third thing I would say is this focus on 
coordinated projects is really critical. I think, for example, 
in Texas, they have set aside money at the State level for 
certain kinds of wildlife projects and one of them we are 
hoping this year is going to be more EQIP money that could help 
Steve Manning do the kinds of things that he is doing. And what 
that does is it permits a--when you ask Mr. Manning how come he 
has been so successful, it is because they have so many people 
working on things at the same time. They have, in fact, 
developed a programmatic Section 7 consultation so they don't 
have any ESA issues anymore related to that work. If we know we 
are going to have a certain amount of money, we can hire the 
biologists to deliver the technical assistance, and because we 
have great farm leadership, I mean, that is critical, and Steve 
has created the goodwill and the partnership has created the 
goodwill so more landowners are interested.
    So that is really the way to do it, is to say, hey, 
whatever the amount of money is right, we are going to put that 
money, if we can, focus it on the particular kind of effort and 
the particular kind of place to benefit, in his case, two 
species of birds, and I think we can do an enormous amount of 
benefit if we do it that way.
    Senator Crapo. Thank you. That is kind of a good segue, Mr. 
Manning, into the questions I wanted to ask you.
    A number of you have mentioned the need to cut paperwork 
and Mr. Searchinger just mentioned your Section 7 consultation 
successes. How were you able to achieve the Section 7 
consultation on your brush clearing program?
    Mr. Manning. Well, Senator, we actually did two Section 7s. 
When we started our project, we were asked to identify some key 
problems, key issues that needed to be resolved, and one of 
those obviously was the disconnect at that time between NRCS 
and Fish and Wildlife Service. I am sure Texas is not the only 
place that exists.
    We knew that if we were going to be able to tap into those 
farm bill dollars, we had to get that resolved, and the 
situation was NRCS, there was some level of distrust between 
NRCS and the Service and so they just--there was kind of a 
standoff in which the NRCS, rather than going to consultation, 
just avoided any areas for technical assistance or cost share 
where there may be the potential for those endangered habitats 
to occur. Well, that is all real good, but they were ignoring a 
huge portion of the State that desperately needed those funds 
and that assistance.
    And so one of the things we did with Leon River, with our 
project, is we put together that core group of NGO's to find a 
way to do a consultation and we did something that was kind of 
outside the box. Our NGO's for that consultation were Texas 
Farm Bureau, Texas Southwestern Cattle Raisers, Texas Wildlife 
Association, Environmental Defense, Nature Conservancy, Audubon 
Texas, Central Texas Cattle Association. Then we pulled in the 
State agencies that were partners and then the two Federal 
agencies and we went into an informal setting, just got in a 
room with everybody, rolled up our sleeves, and started talking 
about what do we need to do.
    We weren't in a formal setting. There was no pressure. It 
was just trying to work out, basically in this case, the best 
management practices, management guidelines that we could use 
to do brush control and habitat management in those occupied 
habitats and get everybody to agree, and we did. Over about a 
4-month period, we worked all that out, got to the point where 
we were in agreement, and once we did, then we got NRCS at the 
State level to request a formal consultation.
    Now, the only other consultation I had ever been involved 
in was part of the grazing lease on Fort Hood. I saw the Army 
go through a very painful four-and-a-half year consultation 
between the Army and Fish and Wildlife Service.
    But what we did is because we had everything worked out--
and remember, Fish and Wildlife Service was at the table in 
that informal setting--we were able to develop a product that 
everybody was in agreement in, the environmental community, ag 
community, wildlife community, everybody was in agreement in 
that product so that when NRCS did request formal consultation, 
the Service cranked it out in 68 days. Nobody had ever heard of 
that. That was for two counties.
    Then we turned right around, because some of our State 
leadership--Susan Collins, our Commissioner of Agriculture, 
pretty strong in that area, wanted to take that model and do a 
Statewide programmatic, and so she brought together that same 
group. She actually referred to Leon River in her letter out to 
the stakeholders from a Statewide effort. She convened that 
first meeting in April of 2004, sat down the same basic group 
of folks and went through that process again. We basically cut 
the State in half because we figured out that for the four 
species, they were all West of I-35. We still had to deal with 
about 29 listed species, including our two birds, but also some 
plants that I had never heard of before, and we worked through 
all of that in about four to 5 months. And then again, we got 
NRCS to go back into consultation, and again, they turned out a 
Statewide programmatic consultation in about 62 days.
    Now, we could probably roll at the chance and go home and 
call that a success, because that was a huge accomplishment for 
us, and the key to that was that core group of NGO's with some 
local, up to county, up to regional, at the State level 
involvement, and then let those folks leverage out and 
communicate to the State and Federal agencies they were most 
comfortable with.
    When you can get the Farm Bureau and Environmental Defense, 
and it takes a lot of association, and Cattle Raisers to get to 
an agreement, there is a huge amount of energy that comes off 
of that and we made good advantage of it.
    Senator Crapo. This sounds to me like another tremendous 
success story of how collaboration works, making sure that the 
right people are at the table. I am assuming this, but I want 
to make sure we get it on the record, you mentioned that at the 
outset, there was a little bit of distrust between some of the 
agency personnel. I suspect that may have even been true with 
some of the NGO's and some of the others. But I am also 
guessing that by the time you were done, those trust levels had 
been significantly enhanced and people were very--they had 
developed personal relationships and they had developed trust, 
is that correct?
    Mr. Manning. Absolutely.
    Senator Crapo. That means that the next vote has started, 
those buzzers you have been hearing, and so I am going to have 
to wrap up pretty quickly here.
    I just want to toss out one other general question here and 
it has to do with collaboration. It seems to me that we have a 
model of the Upper Salmon River Watershed Project. We have the 
model of what you are doing there in Texas, and I could go 
through another dozen different types of circumstances around 
the country where we are using what I call a collaborative 
effort, but basically the effort to bring people from all the 
different perspectives to the table, private sector as well as 
government, and have them develop the relationships and 
approach the issues in a way that will help find solutions. I 
am a big proponent of the notion that if we do that, the 
outcome will be better for the environment and better for 
economic interests.
    The idea of collaboration is certainly not new, but I will 
tell you, it is really hard to get traction at a legislative 
level here in Washington on that kind of thing because it 
involves reforming the way we approach decisionmaking. It might 
involve some amendments to the Endangered Species Act, to the 
farm bill, to NEPA, to some of the other process-oriented 
requirements of the law, and that immediately raises the 
distrust levels that we talked about earlier.
    Again, I am really short on time here. I have only got just 
a couple of minutes before I have to wrap up, but I would 
appreciate any comments that any of you may have in terms of 
how you think we might be able to politically develop the 
momentum that will enable us to redirect our efforts in a more 
collaborative way in terms of environmental decisionmaking. Any 
thoughts on that? I know that is a big question for a couple of 
minutes.
    Mr. Searchinger. This is a very big question. I will want 
to think about it and talk to your staff more about it. I will 
give you a small answer, because I have a small amount of time.
    There is a provision in the farm bill that hasn't been much 
implemented called Partnerships and Cooperation, which was 
designed essentially to facilitate these cooperations. It is 
similar to the Conservation Reserve Enhancement Program, which 
allowed States to submit plans, coordinated plans to use CRP in 
collaboration with State efforts.
    No matter what statutorily happens, one of the great things 
to encourage people to work together is the prospect that there 
is money available if they do that, and so I think that getting 
behind making the Partnerships and Cooperation section actually 
happen work better, it includes the authority to change rules 
in order to--in fact, to simplify, effectually, paperwork in 
order to accomplish a particular plan that has been 
collaboratively agreed upon.
    I think even at the State level, States could take 
advantage of that authority and that might be something you 
could encourage NRCS to more fully implement.
    Senator Crapo. Thank you very much. I am going to have to 
not let the rest of you jump in just because of time.
    First of all, I am confident that we will be sending you 
some written questions and would encourage you to respond in 
writing. I would also appreciate your thoughts on this question 
in writing if you have any further thoughts.
    Mr. Searchinger, you did indicate one thing, and one of the 
things I have noticed as we have gone through many different 
types of collaborative efforts is that in the end, when we come 
together on solutions, there is almost always a need for money 
or resources to implement the solutions, which is one of the 
reasons why I think that the conservation title of the farm 
bill is so key to helping us to move into a more incentive-
oriented decisionmaking process in terms of species recovery.
    But in any event, I want to thank all of the witnesses 
today for sticking with us through this. Your testimony has 
been very helpful, not only your written testimony, but your 
oral presentations and what I expect to receive from you on any 
written questions we send to you. I assure you that we are 
going to continue our effort to try to make the maximum out of 
this opportunity that we have with such a tremendous vehicle, 
that is the conservation title of the farm bill.
    With that, I am going to conclude this hearing. I apologize 
I won't be able to stick around and visit because I am going to 
have to rush over there and finish the last couple of these 
votes. But again, I thank you all for sticking with us and 
thank you for coming today.
    This hearing is concluded.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]


=======================================================================


                            A P P E N D I X

                             July 26, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7639.003

[GRAPHIC] [TIFF OMITTED] T7639.004

[GRAPHIC] [TIFF OMITTED] T7639.005

[GRAPHIC] [TIFF OMITTED] T7639.006

[GRAPHIC] [TIFF OMITTED] T7639.007

[GRAPHIC] [TIFF OMITTED] T7639.008

[GRAPHIC] [TIFF OMITTED] T7639.009

[GRAPHIC] [TIFF OMITTED] T7639.010

[GRAPHIC] [TIFF OMITTED] T7639.011

[GRAPHIC] [TIFF OMITTED] T7639.012

[GRAPHIC] [TIFF OMITTED] T7639.013

[GRAPHIC] [TIFF OMITTED] T7639.014

[GRAPHIC] [TIFF OMITTED] T7639.015

[GRAPHIC] [TIFF OMITTED] T7639.016

[GRAPHIC] [TIFF OMITTED] T7639.017

[GRAPHIC] [TIFF OMITTED] T7639.018

[GRAPHIC] [TIFF OMITTED] T7639.019

[GRAPHIC] [TIFF OMITTED] T7639.020

[GRAPHIC] [TIFF OMITTED] T7639.021

[GRAPHIC] [TIFF OMITTED] T7639.022

[GRAPHIC] [TIFF OMITTED] T7639.023

[GRAPHIC] [TIFF OMITTED] T7639.024

[GRAPHIC] [TIFF OMITTED] T7639.025

[GRAPHIC] [TIFF OMITTED] T7639.026

[GRAPHIC] [TIFF OMITTED] T7639.027

[GRAPHIC] [TIFF OMITTED] T7639.028

[GRAPHIC] [TIFF OMITTED] T7639.029

[GRAPHIC] [TIFF OMITTED] T7639.030

[GRAPHIC] [TIFF OMITTED] T7639.031

[GRAPHIC] [TIFF OMITTED] T7639.032

[GRAPHIC] [TIFF OMITTED] T7639.033

[GRAPHIC] [TIFF OMITTED] T7639.034

[GRAPHIC] [TIFF OMITTED] T7639.035

[GRAPHIC] [TIFF OMITTED] T7639.036

[GRAPHIC] [TIFF OMITTED] T7639.037

[GRAPHIC] [TIFF OMITTED] T7639.038

[GRAPHIC] [TIFF OMITTED] T7639.039

[GRAPHIC] [TIFF OMITTED] T7639.040

[GRAPHIC] [TIFF OMITTED] T7639.041

[GRAPHIC] [TIFF OMITTED] T7639.042

[GRAPHIC] [TIFF OMITTED] T7639.043

[GRAPHIC] [TIFF OMITTED] T7639.044

[GRAPHIC] [TIFF OMITTED] T7639.045

[GRAPHIC] [TIFF OMITTED] T7639.046

[GRAPHIC] [TIFF OMITTED] T7639.047

[GRAPHIC] [TIFF OMITTED] T7639.048

[GRAPHIC] [TIFF OMITTED] T7639.049

[GRAPHIC] [TIFF OMITTED] T7639.050

[GRAPHIC] [TIFF OMITTED] T7639.051

[GRAPHIC] [TIFF OMITTED] T7639.052

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 26, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7639.001

[GRAPHIC] [TIFF OMITTED] T7639.002

[GRAPHIC] [TIFF OMITTED] T7639.053

[GRAPHIC] [TIFF OMITTED] T7639.054

[GRAPHIC] [TIFF OMITTED] T7639.055

[GRAPHIC] [TIFF OMITTED] T7639.056

[GRAPHIC] [TIFF OMITTED] T7639.057

[GRAPHIC] [TIFF OMITTED] T7639.058

[GRAPHIC] [TIFF OMITTED] T7639.059

[GRAPHIC] [TIFF OMITTED] T7639.060

[GRAPHIC] [TIFF OMITTED] T7639.061

[GRAPHIC] [TIFF OMITTED] T7639.062

[GRAPHIC] [TIFF OMITTED] T7639.063

[GRAPHIC] [TIFF OMITTED] T7639.064

[GRAPHIC] [TIFF OMITTED] T7639.065

[GRAPHIC] [TIFF OMITTED] T7639.066

[GRAPHIC] [TIFF OMITTED] T7639.067

[GRAPHIC] [TIFF OMITTED] T7639.068

[GRAPHIC] [TIFF OMITTED] T7639.069

[GRAPHIC] [TIFF OMITTED] T7639.070

[GRAPHIC] [TIFF OMITTED] T7639.071

      
=======================================================================


                         QUESTIONS AND ANSWERS

                              July 26,2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7639.072

[GRAPHIC] [TIFF OMITTED] T7639.073

[GRAPHIC] [TIFF OMITTED] T7639.074

[GRAPHIC] [TIFF OMITTED] T7639.075

[GRAPHIC] [TIFF OMITTED] T7639.076

[GRAPHIC] [TIFF OMITTED] T7639.077

[GRAPHIC] [TIFF OMITTED] T7639.078

                                 <all>

</pre></body></html>
